C3

Nok

IN THE
SUPREME COURT OF THE UNITED STAffeS

film
S3

Alexander J. Silvers,
Petitioner,
Julie L. Jones Secretary D.O.C.,
Respondent.

PILED
M 2 5 2020

ON PETITION FOR WRIT OF CERTIORARI TO
IN THE UNITED STATES COURT OF APPEALS FOR THE ELEVENTH
CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

.T, sJfuecJi

(Your Name)
2/6 S*E CorrQcAuon

(Address)

ISHfe
Aj/f9

(Phone Number)

336 3 b

•I 1

min m

m
|
* 1sis

QUESTION PRESENTED
1) Once a neutral magistrate make a judicial determination of probable cause
in the arrested offense, does that provide legal justification for the state attorney to
file additional charges;
2) Do this Court permit trial judge and prosecuting attorney to establish
probable cause
3) Should the State Attorney notify the defense before filing additional
charges?
4) Is it prejudice for the trial court to determine probable cause?
5) What do this Court consider to be a violation of Due Process?
6) What do this Court mean in Gerstein “a suspect who is presently detain
may challenge the probable cause for that confinement?

t -s *•:
I isi'-l

*.

LIST OF PARTIES
[ ]

All parties appear in the caption of the case on the cover page.

K]

All parties do not appear in the caption of the case on the cover pave. A list

of all parties

to the proceeding in the court whose judgment is the subject of

this petition is as follows:
Attorney General, State of Florida

RELATED CASES
Silvers v. Jones, No: 3:17-cv-1091-J-39PDB, UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA JACKSONVILLE DIVISION, Judgment
entered Aug. 29, 2019.
Silvers v. SECRETARY, D.O.C., No: 19-13818-A: IN THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT. Judgment entered: Feb.
13, 2020.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES
Appendix A

Decision of UNITED STATES COURT OF APPEALS

Appendix B

Decision of the UNITED STATES DISTRICT COURT

Appendix C

Decision of the UNITED STATES COURT OF APPEALS
Denying Motion for Reconsideration

Appendix D

Decision of STATE COURT

TABLE OF AUTHORITIES
CASES

PAGE NUMBER

Gerstein v. Pugh: 420 U.S. 103, 43 L.Ed.2d 54, 95 S.Ct. 854

A

Kelly v. Richter: 562 U.S. 86, 131 S.Ct. 770, 178 L.Ed.2d 624

h

Marion Wilson v. Sellers, 138 S.CT. 1188, 200 L.Ed.2d 530

A

STATUTES AND RULES
U.S.C.S

4* Amendment

7

U.S.C.S.

14th Amendment

1

28 U.S.C.S. 2254(d)

A

UNITED STATES Supreme Court
Rule 11

A

OTHER

7

FLA. RULE OF CRIM. P.P. 318
Crew v. State, 366 So.2d 117, 118-19 (Fla. 1st DCA 1979)

A

Seybel v. State, 693 So.2d 678, 679 (Fla. 4th DCA 1997)

A

State v. Schultz, 120 So.3d 222, 225 (Fla. 4th DCA 2013)

6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
\/\ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to
the petition and is
[ ] reported at
N/A
or,
[ ] has been designated for publication but is not yet reported; or,
[S] is unpublished
The opinion of the United States district court appears at Appendix B to the
petition and is
[ ] reported at
N/A
; or,
[ ] has been designated for publication but is not yet reported; or,
[^] is unpublished
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished
The opinion of the United States district court appears at Appendix B to the
petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished

1

JURISDICTION
[S] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
02/13/20.
[ ] No petition for rehearing was timely filed in my case.
K] A timely petition for rehearing was denied by the United States Court of
Appeals on
the following date: March 27, 2020, and a copy of the order denying
rehearing
appears at Appendix C.
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and
including N/A (date) on N/A (date) in Application No. N/A
N/A.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1);
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of
that decision appears at Appendix______ .
[

] A timely petition for rehearing was thereafter denied on the following
date:
________________ , and a copy of the order denying rehearing
appears at
Appendix
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and
including
(date) on
(date) in
Application No.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1) Under 28 U.S.C. s. 2254(d), a habeas court must determine what
arguments or theories supported or could have supported a state court's decision,
then it must ask whether it is possible fairminded jurists could disagree those
arguments or theories are inconsistent with the holding in a prior decision of the
U.S. Supreme Court.
2) 28 U.S.C. s. 2254(d), which provides:
“An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a state court shall not be granted with respect to any
claim that was

adjudicated on the merits in state court proceeding unless the

adjudication of the claim “(1) resulted in a decision that was contrary to or involved an unreasonable
application of

clearly established federal law, as determined by the Supreme

Court of the United States;

or

“(2) resulted in a decision that was based on an unreasonable determination
of the facts in

light of the evidence presented in the state court proceeding.”

3

STATEMENT OF THE CASE
June 04, 2012 arrested on two violation of F.S. 794.011(8)(b) (sexual battery.)
June 05, 2012 taken to initial appearance, June 28, 2012 state filed two counts of
F.S. 794.011(5) sexual battery, one county of F.S. 794.011(8)(b) sexual battery, two
count of F.S. 794.05. Oct 03, after a jury trial found guilty of three counts of F.S.
784.03 and guilty as charges in F.S. 794.05 unlawful activity with a certain minor
older than sixteen and seventeen young than eighteen being over twenty-four.
October 25, 2012 sentence to three one year terms for battery, and two fifteen years
for unlawful sexual activity. October 29, 2014 while on direct appeal the First
D.C.A. found trial court in violation of the prohibition against double jeopardy. See
150 So.3d 847 (2014 Fla .)
December 18, 2014file 3.850 motion for Postconviction Relief. Mar. 02, 2016
court dismiss motion granting leave to amend motion, Mar 30, 2016 file amended
motion.
March 01, 2017 had not heard from Court, file mandamus in 1st DCA
compeling them to order court to rule on amended motion.
March 20, 2017 lower court rule on amended motion claiming it had not
received amend motion, but one was attach to the mandamus. April 06, 2017 file for
rehearing it was deny April 17 ,2017.
Appeal decision 1st D.C.A. Deny (per curiam) July 10, 2017.
Appeal July 26, 2017 court deny motion for rehearing August 16, 2017 file
U.S.C. S 2254 for Writ of Habeas Corpus motion 09-17-17, motion deny 08-29-2019.

4

Move for certificate of appealability 9-18-19 motion deny 02-13-20, file motion to
reconsider 02-26-2020, deny motion 03-27-2020.

5

REASONS FOR GRANTING THE PETITION
“The State Court and the United States Court of Appeals has decided an
important question of federal law that has not been, but should be, settled by this
Court, or has decided an important federal question in a way that conflicts with
relevant decisions of this court.”
“Presume that unexplained decision adopted same reasoning.” Wilson v.
Seller, 138 S.Ct. 1188; 200 L.Ed.2d 530 (2018)
The First D.C.A. Affirmed the decision of the trial court denying the
Amended 3.850 Motion on it's merits.” [See APPX. B Page 13)]
Under 28 U.S.C. S 2254(d) a habeas court must determine what arguments
or theories support or could have supported a state court decision: (Harrington v.
Richter, 562 U.S. 86, 131 S.Ct. 770, 178 L.Ed 624 2011.) the record shows, that the
court, claim “there is an absence of any indication, or state law procedure principles
to the contrary.” (See APPX. B Page 13) However, there are three state law
procedure principles to the contrary.” State v. Schultz, 120 So.3d 222, 225 (Fla. 4th
DCA) Seybel v. State, 693 So.2d 678, 679 (Fla. 4th D.C.A. 1997). Crew v. State, 36
So.2d 117, 118-19 (Fla. 1st D.C.A. 1979) (See APPX. D Page 3 Order denying original
postconviction relief.)
[The State Attorney's action is contrary to the court's “Therefore” the State
was permitted to decide how to charge defendant following arrest.”] In contrast the
State Attorney added charges. This Court affirm in (Gerstein v. Pugh, 420 U.S. 103
43 L.Ed.2d 54 95 S.Ct. 854), “the States have discretion as to the type of pretrial

6

procedure to be employed in determining probable cause.” This Court never affirm
in Gerstein, a state could add whatever charge it please to that determination, nor
has this Court reference in any other decision of this Court: [The first appearance
judge has the responsibility to perform six separate tasks one of which is to advise
the accused of the pending charges.] (See Fla. Rule Crim. P.P 3.18.)
This Court in Gerstein provides me the right to challenge the probable cause
for this confinement: [Under the Fourth Amendment, a policeman's on the scene
assessment of probable cause provides legal justification for arresting a person
suspected of crime, the Fourth Amendment requires a judicial determination of
probable cause by a neutral magistrate as a prerequisite to extended restraint on
liberty following arrest.] Gerstein v. Pugh 420 U.S. 103, 43 L.Ed. 54, 95 S.Ct. 854
(1975) In the present conviction there has been neither. (See APPX. B Page 9).
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,

<j. A?J

jj-eju)

Date:

IS, Joao

7

